                                            NATIONAL SCIENCE FOUNDATION
                                            OFFICE OF INSPECTOR GENERAL
                                              OFFICE OF INVESTIGATIONS

                                       CLOSEOUT MEMORANDUM

 Case Number: A09090074                                                          Page 1 of 1


                NSF OIG received an allegation'o~plagiarism in a proposaLI It was alleged
         that the subjects2 used the ideas and text of another faculty member 3 without
         properly attributing them to the faculty member. As a part of our inquiry, we
         determined that the university had already completed an inquiry into the matter.
         Based on. our review of documentation, the proposal development was a
         collaborat.ive effort and the other faculty member asked to not be the PI due to other
         commitments. Subsequently the proposal was submitted with the subjects as
         PI/co-PI without providing credit to the faculty member or identifying him as an
         additional author of the proposaL

                We concluded that although the plagiarism was not a significant departure
         from accepted practice, the subjects should have acknowledged the contributions of
         the faculty member. We informed the institution4 that future proposals submitted
         to NSF must properly acknowledge those persons· who have contributed ideas or
         text to the proposaL No further action is warranted.

               . This case is closed with no further action taken.




NSF OIG Fonn 2 (11102)
